<html>
<title> - AUTHORITARIANISM WITH CHINESE CHARACTERISTICS: POLITICAL AND RELIGIOUS HUMAN RIGHTS CHALLENGES IN CHINA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


AUTHORITARIANISM WITH CHINESE CHARACTERISTICS: POLITICAL AND RELIGIOUS 
                    HUMAN RIGHTS CHALLENGES IN CHINA

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON ASIA, THE PACIFIC AND NONPROLIFERATION

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2019

                               __________

                           Serial No. 116-86

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-546PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                      
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
               
                                 ------                                

         Subcommittee on Asia, the Pacific and Nonproliferation

                  BRAD SHERMAN, California, Chairman,

DINA TITUS, Nevada                   TED YOHO, Florida, Ranking Member
CHRISSY HOULAHAN, Pennsylvania	     SCOTT PERRY, Pennsylvania
GERALD CONNOLLY, Virgina	     ANN WAGNER, Missouri
AMI BERA, California		     BRIAN MAST, Florida
ANDY LEVIN, Michigan		     JOHN CURTIS, Utah
ABIGAIL SPANBERGER, Virginia                                   

                    Don MacDonald, Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                  INFORMATON SUBMITTED FOR THE RECORD

Information submitted for the record from Representative Sherman.     4

                               WITNESSES

Zenz, Dr. Adrian, Senior Fellow, China Studies, Victims of 
  Communism Memorial Foundation..................................    18
Jawdat, Ferkat, Uyghur American..................................    23
Siu, Joey, Vice President, City University of Hong Kong Students 
  Union..........................................................    32
Richardson, Dr. Sophie , China Director, Human Rights Watch......    40

                                APPENDIX

Hearing Notice...................................................    61
Hearing Minutes..................................................    62
Hearing Attendance...............................................    63

 
AUTHORITARIANISM WITH CHINESE CHARACTERISTICS: POLITICAL AND RELIGIOUS 
                    HUMAN RIGHTS CHALLENGES IN CHINA

                       Tuesday, December 10, 2019

                        House of Representatives

                 Subcommittee on Asia, the Pacific, and

                            Nonproliferation

                      Committee on Foreign Affairs

                                     Washington, DC

    The subcommittee met, pursuant to notice, at 1:30 p.m., in 
room 2200 Rayburn House Office Building, Hon. Brad Sherman 
(chairman of the subcommittee) presiding.
    Mr. Sherman. The subcommittee will come to order.
    Without objection, all members will have 5 days to submit 
statements, questions, and extraneous material for the record, 
subject to the length limitation in the rules of the committee.
    We do expect votes to be called on the floor of the House. 
When that happens, we will adjourn, and we will reconvene when 
that voting is completed.
    Today is a special day for two reasons. First, this is U.N. 
Human Rights Day; and, second, this is unfortunately the day 
when the human rights of the entire Congress will be abridged 
by knowing that Mr. Yoho will not be with us for more than an 
additional 12 months.
    But it is auspicious that today is Human Rights Day because 
this completes a series of three hearings of the subcommittee 
on human rights. First, we focused on Southeast Asia; then we 
focused on South Asia. Much of that hearing was focused on 
Kashmir, but we also had one witness who focused exclusively on 
Pakistan, and we had considerable discussion regarding Assam, 
Sri Lanka, and other issues.
    Today we focus on China. We were going to have a hearing 
covering all northeast Asia, but there is so much going on in 
China. I should mention that that--had we gone broader, that 
hearing would have covered North Korea. To honor Human Rights 
Day, the Administration has refused to sign off on a U.N. 
Security Council discussion of human rights in North Korea. 
That decision is definitely questionable, and the human rights 
in North Korea are an abomination that angers the world.
    So this hearing will complete our three hearings on human 
rights, and I should also mention that I expect tomorrow that 
the Financial Services Committee will vote to make me chair of 
its Capital Markets Subcommittee.
    Those of you familiar with Congress know that you can only 
have one gavel at a time, and I do not--if I had a gavel here, 
I would hand it to the gentleman from northern California, Mr. 
Bera, who I am sure will take over this committee in the weeks 
and months to come, and has been an outstanding member. This, 
of course, is all subject to a meeting of Democrats on the 
Foreign Affairs Committee, which I am sure will go very 
smoothly.
    So I know this subcommittee will have completed its work on 
human rights hearings and will be in good hands in the years to 
come.
    Today we focus on human rights in China. One of the 
greatest human rights crises in the world is China's ``strike 
hard'' campaign against the Uyghurs and other Muslim minorities 
in Xinjiang Province. Under the guise of counterterrorism, the 
Chinese Communist Party is seeking to eradicate Uyghur culture 
and religious belief. At least a million Uyghurs and perhaps 
far more are in what one Pentagon official has called 
concentration camps. Whether they are concentrated or not, they 
are camps surrounded by barbed wire where people are not 
allowed to leave.
    The ``strike hard'' campaign has also witnessed the 
systemic use of forced labor, which is now, unfortunately, 
entangled in Western supply chains to a degree that we do not 
fully understand, and perhaps our witnesses can enlighten us.
    The Communist Party has built an Orwellian surveillance 
State in Xinjiang that is gradually being adopted perhaps 
over--across China, and even worse may be a Chinese export.
    Last week the House passed the Uyghur Act. The text that 
was passed was an amendment in the nature of a substitute that 
I wrote and presented to the full Foreign Affairs Committee. It 
was based on legislation from three separate bills, one put 
forward--with legislation being put forward by Jim McGovern and 
Chris Smith; by myself and my ranking member, Ted Yoho; and by 
Gerry Connolly and Ann Wagner as well.
    The Uyghur Act would require President Trump to impose the 
Global Magnitsky sanctions against all Chinese officials who 
are responsible for the suppression of the Uyghurs. We are long 
past the point when this should be done, and it should not be 
linked to any ongoing negotiations on trade or any other 
subject.
    The legislation requires that the Commerce Department 
prevent U.S. technology that can be used to repress Uyghurs 
from being exported to China. This bill passed I believe 
unanimously on the House floor, and I urge our colleagues in 
the Senate to pass the Uyghur Bill Act and send it to the 
President, who should sign it.
    The last 6 months have seen massive protests in Hong Kong. 
At times, two million Hong Kongers out of a population of just 
over seven million have taken to the streets. These protests 
began in response to a bill that would have allowed people in 
Hong Kong to be extradited to mainland China where the court's 
respect for human rights is highly questionable.
    Since then, the protesters have added four additional 
demands, including an independent inquiry into the police's 
excessive use of force as well as universal suffrage in Hong 
Kong in its elections. It should be worth noting that Beijing 
committed itself to universal suffrage in Hong Kong as part of 
is basic law for governing the city, but it is yet to make good 
on that promise.
    Although the Hong Kong government has withdrawn the 
extradition bill that initially spurred the protest, it has yet 
to commit to the protesters' other demands. Sadly, in recent 
weeks, there has been growing violence by the Hong Kong police 
and to some degree by demonstrators. And I would point out that 
the demonstrators in Hong Kong are most effective when they are 
peaceful.
    In response, Congress has passed, and the President has 
signed into law, the Hong Kong Human Rights and Democracy Act, 
and legislation that restricting exports of certain police 
weapons to Hong Kong. Among other things, the Hong Kong Human 
Rights and Democracy Act requires the Secretary of State to 
annually certify that Hong Kong still enjoys sufficient 
autonomy from the mainland to justify the U.S. giving that 
territory preferential treatment on trade and other economic 
concerns.
    I should also note that the House passed the Stand with 
Hong Kong Resolution, which I introduce with Ranking Member 
Yoho, Ms. Wagner, Mr. Connolly, and others. There are countless 
other human rights issues in China today, including Tibet, 
where the Communist Party is seeking to control who will 
succeed to the position of Dalai Lama when the current Dalai 
Lama passes on.
    On this issue, Jim McGovern and Chris Smith have introduced 
the Tibetan Policy and Support Act of 2019, which I am a co-
sponsor of. I believe that the full committee will be taking up 
this bill shortly. Ranking Member Yoho also has a resolution 
supporting Tibet's autonomy and supporting the current Dalai 
Lama.
    But the Communist Party is also seeking to extend political 
control beyond its borders. It is a threat not only to human 
rights within China, but also here in the United States. Many 
Americans were first made aware of this when the Communist 
Party targeted the Houston Rockets' general manager because he 
chose to support the Hong Kong protests, yet the NBA is far 
from a unique case for the Communist Party of China has used 
access to the Chinese markets to compel U.S. and foreign 
businesses to toe the party line on countless issues, from 
Taiwan to Tibet to Hong Kong to Xinjiang.
    Hollywood, very important to my district--I represent more 
studios, I believe, in Congress than anyone else--has been 
especially targeted. What the Communist Party does is it said 
only 34 U.S. films can be shown in China each year. Then it 
dangles that in front of studios, making it plain that their 
films will not be among the 34 if they were to dare to make a 
film about Tibet or Xinjiang or Hong Kong.
    I also fear that the Communist Party's efforts to control 
speech around the world will grow more intense as it introduces 
this social credit system. This system will give a social 
credit score to individuals and businesses based on their 
loyalty to the Communist Party of China.
    I recently had a meeting with the former Chinese Ambassador 
to the United States, who remains very active in policy, and 
several others from the Embassy, where they all denied knowing 
that there was anything being worked on called a social credit 
score in China.
    So without objection, I will enter into the record 12 
articles, all describing these in detail, all from publications 
respected in China.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Sherman. This social credit score will also be used to 
penalize those who buy, say, American cars or otherwise help 
reduce the U.S.-China trade deficit.
    I want for the record, though, to point out that I am not 
implacably anti-China. I have been the loudest voice on the 
committee for peace in the South China Sea, and for a cooling 
off of naval relations between our countries. But what China is 
doing with regard to human rights is something for us to focus 
on today on U.N. International Human Rights Day.
    And with that, I turn it over to the ranking member.
    Mr. Yoho. Thank you, Mr. Chairman.
    Mr. Sherman. There are 10 minutes left in votes, so we can 
hear your opening statement and then go to the floor, if you 
want.
    Mr. Yoho. All right. Yes. Let's go ahead and do that. I 
will not be more than 10.
    [Laughter.]
    First off, thank you for the job you have done. I think you 
have been a very valuable and effective chairman, and I will be 
sad to see you leave. But I am glad you are pointing to that 
fellow there because I think Dr. Bera will do an outstanding 
job in your footsteps. So thank you for your service.
    The social credit scores of China--wow, what a powerful 
tool. Would any government love to be able to control their 
citizens, so that nobody runs a red light, nobody crosses, 
jaywalks? What a great tool. But what a threat to freedom and 
liberty.
    This is a scary thing that we are going on, and this 
meeting--this hearing is so important. And I want to thank 
Chairman Sherman and our brave witnesses for making the hearing 
possible today. There is no more important topic for the 
subcommittee to focus on, and this is a message that needs to 
get out to the world. This is something that our manufacturers, 
our NBA--not only the owners but the players--need to 
understand. What is going on?
    How many people in the audience are from Xinjiang or you 
are Uyghurs or you have been to that area? How many people? And 
I am doing this because I know china is probably going to watch 
this, and I hope you guys are OK with that.
    We know what is going on over there, and we are going to 
let the world know what is going on. It is unacceptable. We 
have been through this before. We saw General Eisenhower after 
World War II when he went to the concentration camps say, 
``Never again.''
    But it is going on, and it is going on right now. And every 
time you buy a product that says, ``Made in China'' you are 
empowering the suppressive Communist regime, which incidentally 
in their manifesto, in their Statements say there is no higher 
power than the Chinese Communist Party. Period. There is no 
deity. Xi Jinping is the closest thing to a deity in China. And 
the role of the Chinese people according to the Chinese 
Communist Party is to serve the Chinese Communist Party. 
Whereas, in Western democracies, the role of the government is 
to protect the God-given rights of our citizens and to empower 
our citizens.
    And this is why this message and this hearing is so 
important, because that message needs to get out. When our 
manufacturers go over there, they do it for profit. When NBA 
goes over there, they do it for profit at the expense of people 
that you know.
    The Chinese Communist Party's repression is the greatest 
threat to global human rights and Democratic freedoms. As I 
said in an op-ed I published late last year titled ``China's 
Second Century of Humiliation,'' Xi Jinping is the most 
accomplished human rights violator alive today, and history 
will record that, and I hope he is listening.
    Our witnesses today are on the front lines of a global 
struggle against Xi Jinping and his Communist Party that offer 
socialism with Chinese characteristics. Give me a break. It is 
Communism with suppression on steroids.
    They are leaders. They are leaders. The brave Hong Kongers, 
like Joey here, thank you for coming to our office and I 
appreciate what you all are standing up to do. And I know you 
have put your life in jeopardy, but you are standing up for 
those innate values that we have all been born with of liberty 
and freedom.
    So thank you for standing against the CCP's foot soldiers, 
defend their rights, and wake up the world to their threat.
    Ferkat, you have shown the world a shining example of 
bravery in the face of oppression. Somebody heard one of your 
podcasts today. They were sharing this story, and they broke 
down in tears with your story, and I hope you share that today 
as you fight to free his family from the horrific 
imprisonments.
    Dr. Richardson and Dr. Zenz, thank you for being here. You 
guys are global leaders in bringing the CCP's abuse to light. 
The human rights challenges we all face is massive in scale. 
The recent weeks of secret party documents on Xinjiang, the 
Xinjiang papers, revealed the worst of the abuses occurring 
inside China and are personally directed by Xi Jinping himself.
    This is a wakeup call, and I am glad these papers came out 
because this is people within the Chinese Communist Party 
knowing what he is doing is bad. And so this is something that 
the more we talk about this, and the more we bring this out and 
the awareness campaign, the more it is going to affect their 
decisions.
    Xi has directed a party to use all organs of dictatorship 
to oppress people. Over and over again, the nature of the 
Chinese Communist Party is revealed. But despite the scale of 
these abuses, the world remains largely silent. Our goal is to 
make them wake up, so that their hearing aids are turned on.
    In fact, many countries openly support the CCP's 
atrocities. In the U.N. and on the international stage, dozens 
of countries have defended China's concentration camps. 
Unacceptable. And the international response to Beijing's 
ongoing interference in Hong Kong has been limited at best.
    More and more countries are adopting oppressive laws 
modeled after China's digital authoritarianism, and the CCP is 
exporting its repression around the world. He has offered ZTE 
technology to Maduro in Venezuela, Iran wants it, Putin wants 
it, and I cannot think of a better tool for a dictator to have 
than that.
    China-subsidized tech companies sell dystopian technologies 
to dictators, and the CCP forces international businesses to 
echo its censorship and propaganda. You know, the NBA is a 
perfect example, Marriott Hotels for recognizing Taiwan, 
airlines for saying we are flying to the country of Taiwan. Oh, 
you cannot do that because you have offended somebody in China.
    Disney was going to show films--their new film coming out 
that had the nine-dash lines and said Taiwan was a province of 
China. Thank God for some of the ASEAN countries that said this 
is BS; you are not showing those movies in our country. I 
applaud those countries.
    The scale of CCP human rights abuses, combined with CCP's 
ability to export these abuses globally, has no parallel. We 
need to be on the right side of history. The world has never 
before been challenged by this kind of technology in a 
threatening and negative, suppressive way that China is using 
this today.
    The United States has taken some significant steps in 2019, 
including the enactment of the Hong Kong Human Rights and 
Democracy Act, the House passage of the Uyghur Human Rights 
Policy Act, we passed the Cambodia Democracy Act, but there is 
much more to be done and we have not yet brought the full 
weight of the U.S. Government to bear.
    The world is still mostly silent on the CCP human rights. 
Without a mobilized international response, the United States 
has to continue to lead, and that is why I am thankful for our 
hearing today, so we can reflect their human rights leadership 
in our policy.
    And I look forward to discussing the current state of the 
CCP's repression and the individual freedoms and democracy and 
suggestions on our next steps. And I am looking forward to 
coming back because I am kind of fired up about this.
    [Laughter.]
    You all take care. We will see you in a minute.
    Mr. Sherman. One thing that illustrates the need for human 
rights in China is that 1 minute after we all leave, which is 
right now, I am going to ask the cameras to turn off, and my 
staff will work with anybody in the audience who cannot have 
their face on the tape, so that we will have a place where 
people can watch and where there will be no filming.
    With that, we stand adjourned until after votes.
    [Recess.]
    Mr. Sherman. I should point out, so I believe staff has 
taken action to make sure that anybody who does not want to be 
in this video, their face will not appear.
    I should point out that I have got to commend Mr. Yoho for 
the title of his article, ``The Second Century of Chinese 
Humiliation,'' now being humiliated by their own government. 
Now I will stack that up against what my staff came up with as 
the title for this hearing, ``Authoritarianism with Chinese 
Characteristics.''
    With that, I will ask whether anyone wants to make an 
opening statement. The man who will soon be yielding me 
sufficient time to make small opening statements at hearings of 
the subcommittee, Dr. Bera.
    Mr. Bera. Yes. I just wanted to make a quick statement on, 
you know, it has been a pleasure working with you as the 
chairman of this subcommittee, and certainly the issues that 
you have taken on with regards to human rights and human 
dignity and looking for a better, more collaborative world.
    So I have appreciated your leadership on that. And, I will 
try to take the baton and keep that going in the same direction 
and trajectory. So, with that, I will yield back.
    Mr. Sherman. Ann, do you want an opening statement?
    Mrs. Wagner. Just to echo the gentleman's--associate myself 
with his words. We are glad, as someone who serves on Financial 
Services, that you will be moving up the dais in that regard 
and will be sorely missed here, but we look forward to carrying 
on in your good stead. So we thank you.
    Mr. Sherman. I thank you.
    We have four witnesses today. Two of them have been 
suggested by the minority party. Two of them have been selected 
by the majority party. There is so little partisanship on this 
effort that no one watching these hearings will be able to 
figure out which are the two witnesses Yoho selected and which 
are the two the chairman selected.
    But the first witness I will call on is Adrian Zenz, who is 
a former senior fellow in China studies at the Victims of 
Communism Memorial Foundation. He supervises Ph.D. students at 
the German-based European School of Culture and Theology. He 
has arguably done more than any academic to expose China's 
massive detention centers in Xinjiang, and the general 
oppression of the Uyghurs.
    Please proceed, Doctor.

  STATEMENT OF DR. ADRIAN ZENZ, SENIOR FELLOW, CHINA STUDIES, 
            VICTIMS OF COMMUNISM MEMORIAL FOUNDATION

    Dr. Zenz. I would like to thank you, Chairman and the 
ranking member and the others, for inviting me to testify.
    In 2017, China's Xinjiang region embarked on the probably 
largest incarceration of an ethno-religious minority since the 
Holocaust. Now it is clear that this internment forms only the 
first internment forms only the first phase of a long-term 
strategy of unprecedented and intrusive control.
    Beijing's long-term strategy in Xinjiang is being 
implemented under the heading and guise of poverty alleviation, 
notably industry-based poverty alleviation. I have identified 
three schemes or flows by which the State seeks to place the 
vast majority of minority adults into different forms of 
coercive or at least involuntary labor.
    Flow 1 pertains to persons in what I call vocational 
training internment camps. Camp detainees can end up in 
factories on internment camp compounds, in industrial parks 
which can be located near camps, the camps in them, or village 
satellite factories. One document promised a participating 
company that 500 internment camp laborers would be brought to 
the facility with accompanying police guards.
    The employing companies receive 1,800 Chinese yuan State 
subsidy for each internment camp laborer they train, 5,000 yuan 
for each they employ, and a shipping cost subsidy of 4 percent 
of their sales volume.
    In 2018, Huafu Corporation, which operates the world's 
largest dyed yarn production in Xinjiang, received half a 
billion Chinese yuan, approximately $71 million U.S., in 
subsidies from the Xinjiang government.
    Flow 2 pertains to a vast government scheme that puts 
hundreds of thousands of so-called rural surplus laborers into 
centralized training involving 1 month of military drill, 1 
month of political thought indoctrination, and 1 month of 
vocational skills training. Workers are then sent off to their 
new work destination in large groups.
    Flow 3 places rural Uyghur women into village factories 
equipped with nurseries for infants as young as a few months 
old. Government village work teams use thought transformation 
to convince these women and their parents of the benefits of 
full-time factory labor.
    Government documents note that factory work transforms 
women away from tradition and backward-thinking. One propaganda 
text States that this causes minority workers to become born 
again. The Chinese term for born again used here is the same as 
in the Chinese Bible, equating forced labor with starvation.
    Beijing is turning its internment campaign into a business 
of oppression where participating companies benefit not only 
from government subsidies and from--but also from cheap 
minority labor. As a result, they will be able to undercut 
global prices.
    Particular concern is that all of these labor flows are 
mixing beyond recognition. Graduates from interment camps work 
alongside workers from other flows. Products made by any 
combination of these workers are then exported or shipped to 
eastern China. As a result, many or most products made in China 
that rely at least in part on low-skilled labor-intensive 
manufacturing can contain elements of involuntary ethnic labor 
from Xinjiang.
    The Better Cotton Initiative, BCI, the world's largest 
cotton standard, which aims to promote sustainability and 
better working conditions, recently stated that a continued 
presence and engagement in Xinjiang would continue to benefit 
local farmers.
    BCI states there is no direct evidence that forced labor is 
being used on BCI-licensed farms in Xinjiang. After Huafu, 
which is on the BCI council, was scrutinized. BCI responded by 
noting that Huafu had commissioned an independent social audit, 
which did not identify forced labor. Asking for an independent 
social audit in an environment as controlled as Xinjiang is 
like asking the fox to check that no hens are missing.
    My own research on Huafu comes to far more troubling 
conclusions. Over 90 percent of its staff are ethnic 
minorities, mostly rural surplus laborers. Huafu's website 
states that a large number of world surplus laborers are idle 
at home, which brings hidden dangers to public security.
    Company reports depict hundreds of Uyghurs in military 
uniforms at a staff training event, and a Xinjiang government 
website reports that Huafu is part of an official training 
initiative where Uyghurs are put into centralized military 
drill, thought transformation, and de-extremification.
    Once employed, staff are subjected to intensive ongoing 
political indoctrination, including oath swearing sessions and 
mandatory written reports designed to establish correct values.
    The German company Adidas audited Huafu's spinning 
facilities in Aksu and found, quote, ``no evidence of force 
labor or of government involvement in the hiring of their work 
force.''
    A cursory search shows Chinese media outlets citing Huafu's 
own management openly saying that the local government sends us 
workers according to our staffing needs. A report from the Aksu 
government propaganda bureau confirms that the prefecture 
trains and then sends Uyghur workers to Huafu. Government 
reports that in that very region as many as 200 adults from a 
single village were rounded up by government work teams and 
shipped off to work at factories.
    The third example pertains to garment maker H&M, which 
continues to procure yarn from Huafu, but from their yarn mills 
outside of Xinjiang. However, 19 provinces and cities in 
eastern China are mutually paired with minority regions in 
Xinjiang. This involves extensive state-mandated labor 
transfers.
    Government reports state that one county in Xinjiang alone 
sent 103 rural minority surplus laborers to Huafu's factory in 
Anhui Province in eastern China.
    I am coming to a close here.
    In order to benefit from--in light of these present 
findings, I call upon the U.S. Government to embark on a 
detailed investigation of policies and practices of involuntary 
labor in relation to Xinjiang and the involvement of American 
companies. After passing their Uyghur Human Rights Act, 
stopping the business of oppression in Xinjiang is the next 
step.
    Thank you.
    [The prepared statement of Dr. Zenz follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Sherman. Thank you.
    We will now call upon Ferkat Jawdat, who is a Uyghur 
American activist and software engineer. He immigrated to the 
United States in 2011 with three of his siblings to live with 
his father who had immigrated in 2006.
    In February 2018, Ferkat's mother was sent to an internment 
camp in Xinjiang, along with his--along with two younger 
brothers and in-laws. Ferkat has been publicly advocating for 
his mother and her family and their release, and has met with 
Secretary Pompeo on that issue.
    Please proceed.

          STATEMENT OF FERKAT JAWDAT, UYGHUR AMERICAN

    Mr. Jawdat. I would like to thank Chairman Sherman and 
Representative Yoho and all of the members of this committee 
for giving me the chance to share my story and be the voice of 
my people here today.
    I am here to speak as a Uyghur American, subject to China's 
long arm of terror. I am here to ask the Congress and the 
President to stand up for freedom. I came to the U.S. in 2011 
with my three other siblings to reunite with my father who had 
came here in 2006 and applied for political asylum. But my 
mother could not reunite with us because the Chinese government 
would not issue her a passport. We had exhausted all of the 
legal channels to get her here. China holds her hostage as 
leverage over us.
    On February 6, 2018, my mother left me her last message on 
WeChat, the Chinese version of WhatsApp. She told me she was 
going to the school. This is a code word that they use to 
describe the camps. Then she disappeared.
    A month later, five people from my father's side, they all 
wound up in 1 day and sent to one of those camps. I waited for 
more than 7 months, praying my mother and the relatives will be 
released. It was the darkest period of my life. I was 
desperate, I was scared, and I was nervous.
    Finally, I decided to speak out. Since September 2018, I 
have met many U.S. officials and gave interviews to more than 
40 news outlets around the world. I was worried and scared. 
Each time I spoke out, my cousins, uncles, aunts, and even my 
75-year-old grandmother was threatened by the Chinese officials 
or the police. They were forced to sign documents stating that 
they will cutoff all contact with me.
    Three days after I had the meeting with Secretary of State 
Mike Pompeo in March this year, the Chinese police transferred 
my aunt and uncle to the prison, and later they sentenced them 
for 7 and 8 years for crimes that they never committed.
    After my story was published in The New York Times in May, 
I received a phone call from my mother. She told me she was 
released and then begged me to stop criticizing China and 
speaking out. Three days later, I found that she was released 
only for 1 day to call me, and she was surrounded by police 
officers and then brought back to the camp again the next day.
    After my mom became ill in the camp, she was brought to a 
hospital. An ethnic Chinese senior doctor told officials that 
the only way to keep my mother alive is to allow her to 
contact--having contact with her family members and to get 
proper medical treatment. My mother was released in June, and 
we can now talk by phone. But she is in constant monitoring, 
and she is being visited by the Chinese police or the 
government officials every single day.
    She had to pose for the videos or pictures holding an apple 
or just pretending that she is drinking or eating at the house. 
Since my mother was released, the Chinese security agents 
contacted me twice on WeChat. They demanded that I listen to 
them and work with them in order to keep my mother safe.
    They hinted they could get her released to the U.S. if I 
cooperate with them. When I refused, they told me I should be 
ready to pay the price as I was going up against a global 
superpower. They told me I was worthless. I was powerless.
    The State Department issued a statement on November 5 
calling on China to release the families of three Uyghur 
Americans and stop threatening us. Four days later, the Chinese 
government falsely branded me and Arafat Arkin, who is sitting 
here in the audience, as members of a terrorist organization. 
And then they also released a video of our parents, our family 
members, where they say that they have never been sent to the 
camps and that they are living happily.
    As a result of my testimony in this room today, China may 
release another video or another article where they force my 
mom or my relatives to speak against my will. I worry about 
what will happen to my mother, and then especially after The 
New York Times' podcast released yesterday. Even before that, 
they already threatened that they can just kill my mother if 
that has been--if it has been published online.
    The U.S. Government has led the world in responding to the 
Uyghurs' nightmare. All of the Uyghur Americans, including 
myself, my family members, we all really appreciate it, and 
then thankful for being a member of this great country.
    I also ask Congress to pass the Uyghur Human Rights Bill 
before the end of the year, and send it to the President's desk 
and urge him to sign it and let it come a law. I also ask 
Congress to increase funding for Radio Free Asia, the Uyghur 
Service, and also provide more funding for the Uyghur 
organizations like the Uyghur Human Rights Project and the 
Uyghur American Association.
    And for the last, as a son, I ask your help to bring my 
mother to the U.S. Thank you.
    [The prepared statement of Mr. Jawdat follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Sherman. Thank you. What you tell us is chilling and 
may justify the tariffs we have on Chinese goods, even if we 
did not have a trade dispute.
    I now go on to Joey Siu, who is vice president of the City 
University of Hong Kong Students Association, is an activist 
with the Hong Kong protesters. Ms. Siu has organized peaceful 
protests, including the assembly of 60,000 people calling for 
international support in August of this year.
    She has met with over 60 political leaders from eight 
countries over the past 3 months and has testified at the 
United Nations in Geneva.
    Ms. Siu.

STATEMENT OF JOEY SIU, VICE PRESIDENT, CITY UNIVERSITY OF HONG 
                      KONG STUDENTS UNION

    Ms. Siu. Good afternoon, Chairman Sherman, Ranking Member 
Yoho, and members of the subcommittee. Thank you for holding 
the hearing on the Human Rights Day, the day when the free 
world countries celebrate the adoption of the Universal 
Declaration of Human Rights.
    However, there is a totally different story under the 
Chinese authoritarian regime. Millions of people face severe 
oppression in their daily struggles to defend human rights. We 
Hong Kongers are one of them, and at this critical juncture, we 
are facing an unprecedented humanitarian crisis.
    Ever since the movement broke out on 9th of June, the crowd 
has not stopped taking to the streets for our five demands. The 
massive arbitrary arrests and political prosecutions have 
created a chilling effect on the rights to freedom of assembly 
and expression in Hong Kong.
    Police siege of the Polytechnic University represents the 
most serious occasion of human rights violations. Voluntary 
first-aiders and journalists were arrested and forced to kneel 
with their hands tied--a scene which may not be visible if in a 
war zone. Medical supplies, food and water supplies, were 
cutoff from the campuses then.
    The hygiene soon became a problem, and the desperate 
atmosphere was also traumatizing. The government created a 
humanitarian crisis in Hong Kong.
    On the most critical night, more than 1,000 Hong Kongers 
went onto the streets to rescue the trapped victims inside the 
Polytechnic University. The police responded with brutal 
suppression, resulting in a stampede. Until today, the police 
have fired around 10,000 tear gas canisters, 6,100 rubber 
bullets, and 19 live rounds. Although the police brutal arrest 
and dispersion tactics counts as gross violations of the 
international human rights standards, they continue to enjoy 
impunity from the law and receive full support from the Chinese 
communist government.
    In detention centers, detainees are often tortured or ill-
treated, where access to legal assistance and medical supplies 
is often denied. Victims have also reported sexual and gender-
based violence committed by police officers. In a shocking 
case, a teenage girl filed a complaint against the police after 
allegedly being raped inside the police station by multiple 
police officers. She even needed to undergo a termination of 
ensuing pregnancy.
    The pro-democracy camp's landslide victory in the district 
council election 2 weeks ago demonstrates Hong Kongers' 
overwhelming support for the five demands. Yet we must bear in 
mind that candidates who advocates for independence or self-
determination for Hong Kong are still deprived of the right to 
stand for elections.
    In 2016, Edward Leung, candidate representing Hong Kong 
indigenous, was barred from participating in the legislative 
council election. And in the same year, six elected lawmakers 
was disqualified.
    Edward Leung is now serving his 6-year imprisonment of 
rioting, a crime under the public ordinance, for his 
participation in the 2016 Mong Kok arrest. The vague 
terminology, combined with the disproportional sentences, 
allows the Hong Kong government to arbitrarily arrest and 
prosecute protesters. The ordinance has been repeatedly 
criticized by the United Nations for curtailing the freedom of 
assembly and expression.
    As the court hearings regarding the 2016 Mong Kon unrest 
continues, more than 6,000 politically motivated arrests have 
been made since June. As a result of political prosecution, Ray 
Wong and Alan Li, founders of Hong Kong Indigenous, fled Hong 
Kong in 2017 and were granted asylum status in Germany.
    They were the first two political refugees from Hong Kong 
and now we fear that the world is seeing more and more from 
Hong Kong. Freedom of press and academic freedom are also under 
threat. Major media companies have been bought by the pro-
Beijing tycoons resulting in serious censorship in news 
publications.
    Police unauthorized entry into the universities, 
accompanied by invasive use of force, severely encroach upon 
academic freedom. The government has installed a considerable 
amount of intelligent street lamps with high resolution 
security cameras across the city. Police force was also found 
to have used facial recognition technology to identify 
protestors since 3 years ago.
    The China Communist government clearly has a plan to 
establish totalitarian control in Hong Kong. Having been turned 
into a police state, the city is not far from becoming a 
surveillance state. The threat of Chinese interference is not 
limited to Xinjiang, Tibet, and Hong Kong.
    China has been exporting a surveillance technology, along 
with its mode of totalitarian governance, to countries along 
the Belt and Road Initiative. Beijing's grand imperial projects 
is posing a significant challenge to the rules-based order and 
democratic values across the road.
    We are grateful to the U.S. Government for passing the Hong 
Kong Human Rights and Democracy Act. The earlier the 
Administration imposes sanctions on the perpetrators of human 
rights violations, the less human cost Hong Kongers need to 
suffer.
    We sincerely ask the U.S. Government to lead all other 
democracies in the world, to ensure China complies with the 
international human rights standards. We ask urgently the U.S. 
Government to lead an international inquiry on Hong Kong police 
brutality against the Hong Kong people.
    We defend freedom and human rights, not only for ourselves 
but also for the other people around the world. We need the 
United States and the other countries to stand with us.
    Thank you.
    [The prepared statement of Ms. Siu follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Sherman. Thank you.
    After we hear from the last witness, I will call upon Mr. 
Bera, and then Mr. Yoho, for their questioning.
    And earlier in my opening remarks, I criticized the 
President for not signing off on having U.N. hearings today on 
human rights in North Korea, but I should point out he did sign 
the legislation that we passed overwhelmingly in the U.S. 
Congress on Hong Kong.
    With that, I will recognize our last witness, Sophie 
Richardson, who is China Director at Human Rights Watch and is 
the author of numerous articles on domestic Chinese political 
reform, democratization, and human rights. She has testified 
before at the U.S. Senate, but much more importantly, at the 
House of Representatives.
    And she is qualified to address not only the issues address 
by our other witnesses, namely Hong Kong and Xinjiang, but can 
also enlighten us with regard to Tibet, and the great Chinese 
heartland where human rights are also a concern.
    Ms. Richardson. Dr. Richardson.

   STATEMENT OF DR. SOPHIE RICHARDSON, CHINA DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Dr. Richardson. Chairman Sherman, Ranking Member Yoho, 
members of the subcommittee, we wish we had better news to 
share with you with any of many issues I have been asked to 
talk about today. But from the 156th self-immolation last week 
of a Tibetan, to more than 10,000 rounds of tear gas fired at 
largely peaceful protests in Hong Kong, from the one million-
plus arbitrarily detained Uyghurs who, contrary to party 
officials' claims that they have, quote, ``graduated'' are 
clearly not free, to authorities crushing independent civil 
society and peaceful dissent, partly through pervasive State 
surveillance, including the social credit system, the realities 
are, at best, challenging.
    In addition, Chinese government threats to human rights no 
longer stay within China's borders. They range from undermining 
norms like academic freedom at universities in the U.S. to 
undermining key institutions like the U.N.'s Human Rights 
Council.
    I would like to spend my time today talking through a 
couple of different areas of recommendations. I hope that is 
acceptable to you. The first is about multilateralism, 
specifically with a view toward accountability. We have got a 
lot of evidence of grave human rights violations in Xinjiang. 
We are good on that.
    What we need is to combat China's power in the 
international system and particularly within the United 
Nations, which is effectively blocking many of the different 
pathways to accountability. Let's recall today the proceedings 
began this morning in The Hague against the Myanmar government 
for its gross violations of Rohingya's human rights. We have to 
imagine the same outcome for the family members of all of these 
people who are sitting here with photographs.
    The United States has found ways to support some of the 
efforts related to Xinjiang at the Human Rights Council and at 
the General Assembly in New York. But the reality is that the 
U.S. not being a member of the Human Rights Council has 
hampered those efforts. It has ceded that institution to 
greater Chinese influence, and it has made that institution 
that much more difficult to access for independent civil 
society from China.
    So, quite simply, if we have any expectations that the 
Chinese government is going to be held to the same standards as 
any other government in the world, the U.S. has to be a robust, 
principled, consistent, reliable player there. So that is one 
area we can talk about.
    With respect to sanctions and export controls, we certainly 
share your views about Global Magnitsky sanctions that are 
appropriate for multiple China situations. I think the 
Administration's willingness to use that tool, just in the last 
day or two with Cambodia and Myanmar, but not in China, has not 
escaped Beijing's attention.
    We are encouraged by the Department of Commerce's additions 
of the Xinjiang public security bureau, particularly to the 
entities list. We also encourage scrutiny of CETC, which is the 
conglomerate that is responsible for building the integrated 
joint operations platform, which is sort of the central brain 
of high-tech surveillance in Xinjiang.
    We particularly appreciate the current Uyghur Act's 
approach to export/re-export in in-country transfers, that it 
focuses on the potential threats to human rights rather than a 
specific technology or a specific company, because that matches 
the grim reality today in China, which is that authorities do 
not necessarily want things like handcuffs or tasers to commit 
human rights abuses; they want things like DNA sequencers. And 
U.S. legislation needs to catch up to that reality.
    Third, with respect to pending legislation, we are 
certainly broadly supportive, both of the Tibet Support and 
Policy Act and the Uyghur Act and encourage the Senate to take 
those up quickly and pass them.
    One other area I want members to think about is ensuring 
that U.S. companies, universities, and other institutions are 
not part of the problem. I think this committee can certainly 
do a lot of work in urging any U.S. company that has a presence 
in Tibet or Xinjiang to publish its due diligence strategy to 
show that it has thought through the human rights risks to 
doing business in those regions.
    On a related note, we would certainly urge very close 
scrutiny of any assessments that claim they have unfettered 
access to supply chains. As Professor Zenz has pointed out, 
this is a very difficult region to independently assess much of 
anything, but U.S. universities I think also need to be pushed 
to ensure that they are taking all possible steps to mitigate 
clear Chinese government threats to academic freedom on 
campuses.
    I am happy to elaborate on the work that we have done 
setting out steps that schools can take to challenge these 
kinds of threats. We sent it to all 50 U.S. State university 
systems. Relatively few have replied at all. None of them I 
would say have replied thoughtfully to show that they are 
taking these concerns seriously.
    Last but not least, it is imperative that the U.S. continue 
to support independent civil society in China. The Chinese 
government's foreign NGO management law has made that 
considerably more difficult. We have confidence that the U.S. 
can be nimble and thoughtful and agile and keep supporting the 
people inside China who are really trying to make change.
    We also hope the U.S. is actively tracking and vigorously 
pushing Chinese authorities over those authorities' harassment 
of family members inside China for the activism of people 
outside China.
    So I think combining these different elements makes for the 
most successful possible human rights dialog between people in 
the U.S. and in China, and I am happy to answer any of your 
questions.
    [The prepared statement of Dr.. Richardson follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Sherman. Thank you.
    Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman. Thank you for holding 
this important hearing, and thank you to the witnesses for 
having the courage at some risk to step up and share the 
stories. It is incredibly important, and to have a platform 
such as this.
    When I think about my introduction to activism, it was as a 
young college student in the apartheid movement in the early 
1980's, and so forth, and it almost is as though we have got to 
create public awareness and a similar movement to build on what 
I hope are our core values as the United States of America of 
human rights and human decency and not sit silent.
    Dr. Richardson, you may have the best perspective on this. 
Obviously, China controls the flow of information within China, 
information from Hong Kong, information from Xinjiang. How much 
does the rest of the Chinese domestic population know what is 
happening within their own borders?
    Dr. Richardson. Well, getting at that kind of information 
requires a couple of things. First, access to a really good 
VPN, which has gotten much harder. But it also requires knowing 
to ask, knowing enough to go looking. And if you have been told 
all your life that, Xinjiang is a hotbed of terrorism, and, 
therefore, Chinese government policies in the region are 
justified. And you have never had the opportunity to second-
guess that or been given reason to do that. You are probably 
not going to.
    And, some of my colleagues speak very eloquently about the 
very jarring reality of, for example, leaving the country to 
come to school, for example, in the U.S. and being confronted 
with a completely different set of facts and not--and going 
through the process of understanding not just that what you 
have been taught all of your life is, at best, questionable, if 
not completely fictitious.
    But then the process of relearning and understanding how 
you can actually give credence to certain kinds of information, 
it is very challenging on many levels.
    Mr. Bera. And what tools do we have, say, in the 
multilateral Western world to get information into China about 
potentially what is going on?
    Dr. Richardson. I think that ranges everywhere from anti-
circumvention technology, or I should say pro-circumvention 
technology, to the wonderful work that is done by different 
services like VOA and RFA.
    I think keeping the doors open to students and to scholars 
who want to come to the United States is critical. And treating 
that impulse as an opportunity for solidarity rather than just 
a national security issue, which is really how it has been 
discussed here for the last year, I think those are all 
important ways of giving people access to alternative 
narratives and information.
    Mr. Bera. You touched on the role of the U.S. corporate 
sector, as well as academic institutions, and certainly, again, 
going back to my introduction in the early 1980's some of that 
was putting pressure on the U.S. corporate sector as well as 
the U.S. academic sector. At this juncture, do you see much of 
that happening at the grass-roots level, or, you know, from a 
State-by-State perspective? Or is it still very early?
    Dr. Richardson. I would say that it is very fragmented, and 
I think they are very different discussions about the 
involvement of companies and the kinds of due diligence 
standards that they are expected to uphold. I think the 
discussion for and about universities is different, which is 
not necessarily to say that some of them are not just as 
problematic in their relationship. So I think they have a 
different set of responsibilities and obligations.
    I think universities are really struggling to understand 
the scope of threats to academic freedom that stem from Chinese 
government pressure. They seem to think for the most part that 
unless a Chinese diplomatic is, for example, telling them they 
cannot have--telling a senior-level administrator that they 
cannot have a particular event on campus, that there are not 
problems. They are not--they are not looking at examples like 
at the U.C. Davis campus a couple of weeks ago, you know, 
students ripped--pro-Beijing students ripping down Lennon Walls 
and other pro-democracy Hong Kong materials.
    The school is not proactively saying, in a very broad 
sense, you cannot do that and taking a stand on issues like 
that. Some of it is very, through micro-level awareness, that 
big institutions I think are struggling to get their heads 
around.
    Mr. Bera. So probably, you know, one thing that definitely 
is within our control, if you are in the U.S. domestically, is 
to raise that awareness, to make sure proper information is 
getting out to kind of the U.S. corporate social 
responsibility, community, and certainly to the big academic 
institutions, and that flow of information getting out there, 
and certainly to the big academic institutions and that flow of 
information getting out there.
    And, again, not going to be easy, but certainly I think it 
is incredibly important to create both a grass-roots--one last 
question, kind of on the multilateralism where Western 
democracies, countries that share similar values about human 
rights, we have not heard as much of that kind of multilateral 
coalition coming together to exert pressure or exert economic 
pressure.
    Now, are you seeing some of that coming together or----
    Dr. Richardson. I guess maybe I have a bit of a different 
view on that. I mean, the 25 governments, not including the 
United States----
    Mr. Bera. And maybe that is the perspective that----
    Ms. Richardson [continuing]. Came together in July to offer 
up the first serious criticism via the Human Rights Council 
president about Xinjiang calling for access.
    Mr. Bera. And maybe playing off of that, how diminished is 
our role by not being part of the human rights community right 
now?
    Dr. Richardson. Well, it is about being part of the Human 
Rights Council particularly. But, you know, I cannot in 5 
seconds answer. It is enormously problematic. Other governments 
wants the U.S. leadership. They want the air cover.
    Mr. Sherman. Thank you.
    Mr. Bera. Great. Thank you.
    I will yield back.
    Mr. Sherman. I now recognize the gentlelady from Missouri.
    Mrs. Wagner. Thank you, Mr. Chairman, and I appreciate the 
ranking member allowing me to jump ahead here.
    The New York Times recently published hundreds of pages of 
leaked party documents relating to oppression of the Uyghurs. 
Some seem to suggest that the rampant human rights abuses in 
Xinjiang had caused rifts in party leadership. Mr. Jawdat, how 
significant are these dissenting voices? And how can the United 
States leverage internal disagreement to blunt Beijing's attack 
on the Uyghur Muslims?
    Mr. Jawdat. So, for that question, I think before, like, we 
come to the question part, like it is really important to know 
that the documents were released by someone inside a party.
    Mrs. Wagner. Right.
    Mr. Jawdat. And then he or she stated that the reason that 
he risked his or her life to publish the documents is to get Xi 
Jinping and then the party officials in front of justice. So we 
have to get the signal.
    And then the world is waiting for a document or proof or 
evidence, like for years, but now we got--we have got the hard 
proof. It is coming directly from Xi Jinping himself.
    And then there is disagreements between the Communist Party 
about what to do, how to suppress the Uyghurs. But it is really 
good to see that there is at least some people in the Chinese 
government, the ethnic Chinese officials, that they are trying 
or saying no to the Xi Jinping's order.
    Mrs. Wagner. Well, I hope we can continue to leverage a 
little bit of that internal dissent, and it is up to us to give 
voice. I thank you for your courage and all----
    Mr. Jawdat. Thank you.
    Mrs. Wagner [continuing]. That you have endured.
    More than a year ago, in a controversial bid to insulate 
Chinese Catholics from persecution and intimidation, the 
Vatican signed a deal with the Chinese government allowing it a 
role in appointing Catholic bishops in China. In the meantime, 
China has launched a Sinicization campaign to dilute the 
religious, ethnic, and cultural identities of minority groups.
    Dr. Richardson, how is Sinicization affecting Chinese 
Catholic communities, both State-sanctioned and underground? 
And how has the Vatican responded?
    Dr. Richardson. ``Sinicization'' means being loyal to the 
party and the government, above anything else.
    Mrs. Wagner. It is an amazing word; is it not? Yes.
    Dr. Richardson. And it is a little hard to reconcile with 
the concept of the freedom to believe.
    Mrs. Wagner. Correct.
    Dr. Richardson. Since one rather does seem to replace the 
other. So the problems that we are seeing as a result of the 
Sinicization campaign are not unique to people who are 
worshiping in State-sanctioned Catholic churches versus 
underground ones. This is relevant to Tibetan Buddhists. It is 
relevant across different faith communities.
    It is hard to see much of a consequential response 
whatsoever from the Vatican. There was a Global Times story 
this morning that I believe suggested that the Pope had China 
and the Chinese people central to his heart. It is up to the 
Vatican to say whether that is accurate, but negotiations seem 
to be proceeding between the two about the selection of 
bishops.
    Mrs. Wagner. Well, as a cradle Catholic, I believe that it 
is incumbent upon the Vatican to call this Sinicization 
campaign out, especially given the agreement that they have 
undertaken with the Catholic bishops in China. And I would very 
vociferously call on that here.
    China is in the process of assembling and implementing a 
dystopian social credit system that uses data mining and 
surveillance to score citizens--to score citizens based on 
their, quote, ``trustworthiness.'' I understand China plans to 
deploy a similar system now to track businesses operating in 
China.
    Dr. Richardson, again, what is the status of the corporate 
social credit system? And how do you anticipate it will be used 
to coerce and intimidate foreign actors?
    Dr. Richardson. The most recent development was about 3 
months ago when Chinese authorities announced that they were 
going to use the social credit system, whether they were going 
to apply the corporate version of it not just to domestic 
companies but to foreign ones as well. I can only assume that 
our collective social credit scores are pretty low at the 
moment.
    It is very difficult to tell just how integrated across the 
country these systems are. And at the moment, from our 
perspective, they appeared designed to reward or induce 
particular kinds of behavior. It is not exactly clear what 
sorts of punishments will follow for having a low score.
    We know that if you have got a good score, for example, you 
are more likely to be able to enroll your child in the school 
that you want, or you will not have problems doing things like 
buying plane tickets or accessing State services. But if you 
have a low score, you can run into problems.
    And, of course, in a normal world, this might just be sort 
of a consumer rating system maybe. But we are talking about an 
environment in which the law is whatever the Chinese Communist 
Party says it is when it says it is that. And there is no right 
to privacy, and there is no way for people to know fully how 
they are being rated, what the consequences are. It is an 
entirely arbitrary system.
    And in a way, I think to the extent some people inside 
China have expressed enthusiasm for this idea, that is as much 
a commentary on how politicized and corrupt the legal system is 
in not being able to deliver consistent verdicts about what 
behavior has been codified by law, it is----
    Mrs. Wagner. The repression and the brainwashing is 
significant. My time has expired. I want to thank you all for 
being here, for your courage. And everyone who sits behind that 
this Congress and this committee care deeply about bringing 
light to this process and this disgraceful humanitarian regime.
    So I yield back, Mr. Chairman.
    Mr. Sherman. Yes. Dr. Richardson, when the Chinese 
diplomats were in my office, they denied the social scoring 
system even existed. Do organs of the Chinese government at 
least admit that this is happening? Or do they consistently 
deny? Or is it like they deny on Mondays and admit it on 
Tuesday?
    Dr. Richardson. Well, I mean, let's recall that this is the 
government that denied for a year was arbitrarily detaining any 
Uyghurs, and then, you know, and there is----
    Mr. Sherman. But is the Chinese government on record as 
saying they are developing a social scoring system? Or do they 
try to deny it constantly?
    Dr. Richardson. You know, some parts of the government have 
publicly acknowledged the social credit system, mostly at the 
municipal level, governments that are using it for access to 
local public services. But, no, there is evidence out there. It 
is not a problem.
    Mr. Sherman. And they claim that they will lower their 
tariffs, we will lower ours, and we will have fair trade. Can 
this system be used to punish either individuals or companies 
that choose to buy products or services from the United States 
when they could have bought them from Chinese companies?
    Dr. Richardson. I do not think we have any information to 
answer that question yet. So I guess I would default to a more 
general observation that it is our arbitrary, right?
    Mr. Sherman. Right. And we do know that it is the position 
of the Chinese government, buy the Chinese products, and that 
is one of the reasons why we have the world's--the largest 
trade deficit in history with China.
    The World Bank is supposed to be helping countries that are 
trying to develop. We had Mnuchin come before the Financial 
Services Committee and think it was a great victory that China 
was only going to get $1 billion--turns out it is closer to 2 
billion--of concessionary loans from the World Bank, including 
our money.
    But it particularly troubles me, in light of this hearing, 
I am told that the World Bank currently funds several 
vocational schools in Xinjiang. Does the World Bank have the 
capacity to make sure that those schools are not part of this 
incarceration/retraining system? Mr. Jawdat?
    Mr. Jawdat. I just wanted to add, like as a comment, like 
to your question is, well, like you said it is that more than 
$1 billion, some part is from our money, that some part is 
coming from my tax in the U.S. that I am making, I am paying 
for the government. And then it is being used to put my mom in 
the camp.
    Mr. Sherman. Why the U.S. Government has not drawn a line 
about our participation in the World Bank and demanded a zero 
approach to subsidizing the Chinese government is something I 
addressed to Mr. Mnuchin, and you may want to address to the 
Administration as well.
    I know the State Department is not represented here at this 
hearing, but is the United States doing all we can to get our 
diplomats and to get nonprofit--rather, non-governmental 
organizations access to Xinjiang? Does anyone know? I do not 
even know if we are even trying. Dr. Richardson?
    Dr. Richardson. I think it is a little bit different for 
diplomats and for NGO's. I certainly would not object to the 
State Department being more adventurous, actually trying to 
send diplomats to----
    Mr. Sherman. I certainly have not read any report of 
anybody making it from our embassy in Beijing out to western 
China.
    Dr. Richardson. I think their calculation is that they 
would be so heavily surveilled they would be turned around on 
arrival. And, look, that is the reality. That would happen. But 
I think at this point the U.S. should be considering, for 
example, stating explicitly that it is pursuing consular cases. 
There are plenty of U.S. citizens and legal permanent residents 
who have family members who have been detained.
    Mr. Sherman. Right.
    Dr. Richardson. I see no reason why the State Department 
could not be more aggressive in trying to visit the region to 
try--with the explicit stated purpose of trying to visit those 
family members, even if they do get turned back. Let that be 
reported.
    Mr. Sherman. Exactly. And I would point out that Chinese 
diplomats fly around our country as they will. What can the 
United States do to ensure that Americans are not purchasing 
goods made with forced labor?
    Dr. Zenz. I think the U.S. Government is becoming aware of 
the issue slowly. I have done my part in this. The problem is, 
the forced labor situation is very complex and very 
complicated. It does not just involve internment camp labor. It 
involves involuntary training, putting women into small-scale 
village factories, and transferring minorities to work in 
participating larger corporations in eastern China. And that is 
one of the examples I gave in my testimony.
    And so the problem is there is a lack of understanding and 
awareness, especially of the cross-linkages between Xinjiang 
and eastern China. And I think it would be very good if the 
U.S. Government, for example, sent a strong signal, a strong 
message of concern to the business community, because my 
impression is that the business community is just really trying 
to get away with whatever they can as we have seen in recent 
weeks.
    Mr. Sherman. I am going to sneak in one question quickly, 
because I do not know if anybody has an answer. Do any of you 
have a view as to why the Trump Administration has not used the 
Global Magnitsky sanctions on a single Chinese official, not 
even the party secretary for Xinjiang?
    Let the record show no one could answer the question.
    Dr. Zenz. I have heard through the grapevine that the 
Treasury Department--and this is not my personal observation, 
but it has been heard through--it has been rumored through 
several grapevines, let's put it that way, and it has become 
almost maybe public knowledge that the Treasury, which is, you 
know, primarily of course responsible for agreeing to the 
Magnitsky, did not in any way want human rights considerations 
in Xinjiang to impact the trade negotiations. So prioritizing 
the trade negotiations.
    Mr. Sherman. One would hope that people would read the 
statute and realize you cannot ignore human rights statutes, 
even if you think that is achieving another purpose.
    With that, I will recognize the ranking member.
    Mr. Yoho. Thank you, Mr. Chairman, and I appreciate 
everybody's testimony. I think it all comes down to the money, 
and I am going to address that later.
    But first off, I want to say how blessed I am to have been 
born in America, to live in this country, because I--and I feel 
guilty for not appreciating it every day. But when I see you 
holding up signs and pictures of your family members, how 
fleeting freedom is, and how fortunate we are in this country. 
Thank you all for being here. Thank you all for braving coming 
out in public.
    And I am going to ask the audience again, of the members of 
your family that have been picked up and sent so-called to the 
re-education camps, how many of those did that freewill? I see 
no hands, so I would say none.
    How many were gainfully employed and law-abiding citizens 
before they got picked up? How many? Your mother was? Anybody 
else?
    All the pictures here, these people had jobs? They were 
working? They were lawfully employed? Law-abiding citizens? How 
many of them were deemed terrorist or were troublemakers? That 
is what we know, yet China says it is for their own good.
    We have talked to other members from Xinjiang, pharmacists, 
accountants, doctors, that were just living their life, and 
they had a belief, a religious belief. And I wanted to say to 
Ambassador Wagner that the Pope is going to have some 
explaining to do when he meets up at the Pearly Gates of St. 
Peter's that he has put God under the Chinese Communist Party, 
because China said that there is no God.
    Dr. Richardson, you brought out--you talked about, can you 
send this committee and my office the letter you sent to the 50 
universities?
    Dr. Richardson. Of course.
    Mr. Yoho. I would like to help you have a followup with 
that.
    Dr. Richardson. Thank you.
    Mr. Yoho. Because I want that answer, too, because we have 
asked that. We cannot dictate to China. We cannot force China 
to do anything. The message we need to send to China is--and to 
our manufacturers is to institute what we have deemed the ABC 
policy in manufacturing, and that is called manufacture 
anywhere but China, because it is about the money.
    The only thing that allows China to do what they are doing 
is because of the money. They have cornered the market on the 
rare earth metals. They have cornered the market--100 percent--
of the vitamins and minerals that go into our livestock feed. 
They control 85 to 90 percent of the APIs, which are the active 
pharmaceutical ingredients. And the list goes on and on and on.
    And so we cannot force them to do anything, but we sure can 
put public pressure on our manufacturers. We can put public 
pressure on the NBA. And it makes me sick that they come out in 
defense of China, but yet they are actively supporting a 
government that is actively suppressing the people. And it is 
just not the people of China. It is what we see in Hong Kong.
    And thank you for standing up and doing what you do, Joey. 
I have followed you and this protest over the weekend. I want 
you to know that it is not going unnoticed. It is noticed here 
in the United States of America. It is noticed around the 
world. And as the chairman said, the more you can do it 
peacefully, the stronger the message is, because China cannot--
they do not know how to deal with freedom of thought, because 
you do not honor the Chinese Communist Party on a pedestal and 
bow down to it, because that is not the way we are designed.
    But you know what we can do, is when I went shopping this 
weekend to do some projects around the home, I had to buy 
something. It was made in China. I put it back, and I looked 
until I found something that was made in the country of Taiwan. 
I paid $1.50 more--maybe extra for it, and I am happy to 
support the country of Taiwan over supporting a Communist 
regime that I know is not looking out for humans and human 
rights.
    And so that is what we can do individually as people. And 
if enough of us do that, that message gets over there clear, 
and I think with the people releasing those 400 pages, I think 
that is awesome, and that person should get the Nobel Peace 
Prize when this all settles, because these people on--this is 
what we are fighting--the suppression of people that have 
normal family lives. It is just because they choose to have a 
religion that the Chinese Communist Party does not agree with.
    We have seen this in Tibet. We have seen the erosion of the 
Tibetan culture. The Chinese government has put drugs in there 
to dilute that society. They are doing it in Xinjiang. They 
want to do it in Hong Kong. Who is next?
    When I first took over the chairman--if you do not mind me, 
Mr. Chairman--when I first took over the chairmanship last 
Congress of this committee, we had a meeting with the country 
of Taiwan. My office staff--one of them is right here--said 
that the Chinese Ambassadors called them, says, ``We do not 
want your member to have that meeting.''
    Can you imagine that? I am a sitting member of the U.S. 
Congress, and I am getting a call from--the Ambassador from 
China says, ``You cannot have that meeting.'' I told them to 
mind their own business; I will meet with whomever I want to.
    I was in the country of Chile with a Congressman down 
there. His brother had received two ambulances from the country 
of China. His brother is the mayor in a town. The Congressman 
was having a meeting with the country of Taiwan. China told 
him, ``If your brother has that meeting with Taiwan, you will 
not get any more ambulances.'' That is the kind of reach they 
have.
    Dr. Richardson, you brought up the effect on our 
educational system. You obviously saw what was going on in 
Canada over the weekend and last week. Pro-Beijing people were 
demonstrating and causing conflict with the people that stood 
up for the human rights and the people standing up in Hong 
Kong. This is something we, as people of free societies, can 
and will and will stand together to make this come to an end.
    I do not want to buy anything from China. When they start 
acting properly, maybe they will have to sing Amazing Grace or 
something. I do not know what it is. But then we will treat 
them as normal.
    With that, Mr. Chairman, I yield back, and thank you for 
your time.
    Mr. Sherman. I recognize the gentlelady from Nevada.
    Ms. Titus. Thank you, Mr. Chairman. I realize that today's 
committee hearing is about the egregious abuses by China of 
human rights. But it goes much further than that. This is more 
than just bilateral relations between China and the U.S. It is 
multinational, and it certainly is a regional problem.
    I would ask Dr. Richardson if we could pick up where Ami 
Bera left off. It seems to me there is a double dilemma here. 
On the one hand, the U.S. is conceding its leadership role in 
the protection of human rights. I think that is international, 
but certainly an example is China. On the other hand, China is 
in a position where it can exert economic and security 
pressures on certain countries.
    So when we tell them, ``Do as I say, not as I do, but you 
have to do this or we will put sanctions,'' how are they going 
to balance their attempts to protect human rights with that 
pressure that they are receiving from China? And what can we do 
to try to intercede there, to be a player again?
    Dr. Richardson. I think that is sort of the $64,000 
question of our time. I think, first, the U.S. has to make sure 
that it is itself fully compliant, and behaving in accordance 
with established international human rights law.
    I would refer you to my colleagues who work on the U.S. to 
speak more specifically to some of those issues. But I think 
the U.S. has been slow to recognize and respond to the ways 
that--the many different ways that the Chinese government and 
Communist Party have moved into all different spaces of 
international relations. It is not just about U.S. development 
assistance competing with, for example, the Belt and Road 
Initiative.
    There are very complex discussions about the use of 
technology and who is going to set and defend international 
standards on things like privacy rights, or who own certain 
kinds of technology and can deploy that. There are a lot of 
different areas where I think the U.S. has some catching up to 
do in crafting policies that are consistent with international 
human rights standards, but also offer compelling alternatives 
to countries that are increasingly dependent on Chinese 
government money.
    Ms. Titus. Anybody else?
    Mr. Jawdat. One example I think of is the overwhelming 
passage of the Uyghur Human Rights Policy Act from the House. 
Like right after that, Australia and then the EU yesterday, 
they implemented their own Magnitsky sanctions for the human 
rights abusers. So even before that bill becomes a law there is 
already enough momentum around the globe that other countries 
are following the U.S. steps.
    So it is really--like many great things start from here. So 
once that bill becomes a law, it is really a great chance for 
other countries to really stand up, and then it will give you 
another like alliance, and then another power to go after 
China.
    Dr. Zenz. The biggest problem, the Chinese are very good at 
strategy, and they have always been for a long time. And I know 
that you pick countries out one by one, so the strategy is to 
isolate and to bilateral.
    The approach to contain China's human rights violation that 
we need to take must be multilateral. And China, knowing that, 
has moved to paralyze and co-opt the few multilateral 
institutions that we actually have. And that I think is the No. 
1 problem that we are facing, and that must be recognized. And 
I am not sure where the right solution even starts, but I think 
that is the key problem and a lot of countries are afraid to 
counter China very directly.
    I mean, look at Sweden. I mean, they just took a Swedish 
citizen, you know, in front of diplomats and put them--Gui 
Minhai--put him in prison. Yes, he is ethnic Chinese, so they 
think he is one of the, no matter what his passport is. And 
Sweden is not even publicly doing anything about it, and then 
the Chinese Ambassador to Sweden regularly lashes out at the 
media and everything.
    And then one of the Swedish ministers was going to attend a 
ceremony to honor or commemorate or something Gui Minhai, their 
detained citizen. And then Chinese Ambassador to Sweden 
threatened that if the minister would attend that she would get 
on a blacklist, a Chinese blacklist.
    If I was head of Sweden, I mean, I would not just say 
something, but I would say something strong. And I have no idea 
what these people do and how they think that they can get 
pushed around, but I think this is more than ridiculous. And it 
is amazing it has even gotten this far.
    Ms. Titus. Well, when you create a trade war, and then try 
to resolve it and make that the priority as opposed to human 
rights, that is the kind of results that you get here in this 
country. We seem to be afraid to stand up as well. That is the 
problem.
    Thank you, Mr. Chairman.
    Mr. Sherman. Thank you.
    For the record, if China is watching, I hope you put me on 
the blacklist. I would be honored.
    Mr. Yoho. I will be with you.
    Mr. Sherman. Good. And Mr. Yoho, too.
    For the record, I want to apologize for not calling on the 
gentleman from Michigan first, and I will call on Ms. 
Spanberger for her questions, and we will see if the gentleman 
from Michigan makes it back.
    Ms. Spanberger. Thank you, Mr. Chairman.
    And to our witnesses, thank you for being here today.
    To all of the families who are present, thank you for your 
continued activism. Thank you for being here with photographs. 
Thank you for reminding Members of Congress what exactly it is 
that you are working for.
    And I see my colleague has just entered. Okay. I will 
continue. Thank you to my colleague from Michigan.
    Dr. Richardson, my question is for you. In your opening 
statement you said something to the effect of ``To commit human 
rights offenses, China does not need handcuffs. They need DNA 
sequences'' or ``they will be using DNA sequences.'' And 
through artificial intelligence and the use of more than 200 
surveillance cameras, China is developing the capability to 
conduct widespread surveillance and enforce social control.
    These capabilities, specifically the use of biometrics, 
facial, voice, iris, and gait recognition software, and 
pervasive video monitoring, are being used extensively in 
Xinjiang to identify individuals who Chinese authorities 
consider threatening.
    I am concerned about China's development of artificial 
intelligence surveillance technology, but I am also very 
concerned about reports that China is exporting this technology 
to other countries for their potentially repressive purposes.
    How can policymakers prevent U.S. actors from contributing 
either through the provision of capital or technology to the 
construction of the Chinese government's surveillance networks?
    Dr. Richardson. It is a big question. I mean, the first key 
piece clearly is knowing who is selling what, and how that 
technology is being used. I mean, the nearly 2-year-long 
conversation that we had with Thermo Fisher Scientific, a 
Massachusetts-based technology firm, revolved largely around 
the fact that they were extremely reluctant to acknowledge the 
possibility that their technology might be used in a really 
nasty way.
    So I think the conversation really has to start with 
understanding what technology is being sold and to whom and how 
it is actually being used. And the reference to handcuffs was 
that the sanctions that went into--that the U.S. imposed after 
Tiananmen, which have weakened considerably, were largely about 
crowd control or police equipment.
    But what has not kept up is U.S. legislation that responds 
to what Chinese police are now using as tools of repression. It 
is a very different set of equipment. So I think the relevant 
committees really need to look at who is selling what to whom, 
especially in light of either the addition of the Xinjiang 
public security bureau to the entities list, and the greater 
focus on some of the Chinese tech companies.
    We actually wrote in 2014 about ZTE selling voice 
recognition software to the Ethiopian government, which was at 
the time using that equipment to surveil conversations by the 
political opposition. This is knowable information. Some of us 
are working in different ways on gathering some of it, but 
presumably Congress has resources at its disposal to do a 
broader survey.
    But I think one piece of this I would encourage you to 
focus on that has not gotten as much attention as we think it 
should is also the role of sort of research and development and 
some academics and institutions in working with Chinese public 
security research institutes--such things exist--and there has 
actually been an alarming amount of collaboration between 
foreign experts and those institutions with a view toward 
refining technology.
    Last but not least, it is concerning to us that there is 
ongoing cooperation between some of the companies that are now 
on the entities list and U.S. universities. MIT's flagship 
computer science laboratory has an ongoing partnership with 
iFlytek. I do not quite understand how that works now, but 
iFlytek is on the entities list.
    But in the same way that we need to look at what 
universities are doing with respect to academic freedom, I 
think there is also room to look at what they are doing in 
terms of collaboration with some of these kinds of companies.
    Ms. Spanberger. Thank you very much.
    And, Mr. Chairman, I do not have a timer, so I think I am 
running short. But I want to thank the witnesses, and I yield 
back.
    Mr. Sherman. Thank you.
    And now I will yield as much time as he may consume to the 
very patient gentleman from Michigan, who I should have called 
on earlier.
    Mr. Levin. Thank you very much, Mr. Chairman. First of all, 
I want to congratulate you on your outstanding leadership of 
this subcommittee. I do not know if this is the last hearing 
you preside over before you move on to other leadership duties, 
but I really want to thank you personally for your great work 
here.
    And I want to say to--on this Human Rights Day--we could, 
sadly, spend days of hearings on different human rights 
problems in China--the surveillance State and their sort of 
global reach on those issues, which you were just talking 
about, the situation in Xinjiang. And I give a shout-out to all 
of our Uyghur brothers and sisters. We see you. We hear you. We 
are going to fight for you, no matter what it takes, until we 
can take apart this repressive gulag, really, that exists in 
Xinjiang.
    And in Hong Kong, Ms. Siu, I was in Hong Kong in May, late 
May 1989, when over a million people took to the streets in the 
democracy movement. And I just salute your brave activism 
there.
    But later in that summer, I went on to Chengdu and tried to 
get into Tibet, and I want to focus my questions on the 
situation in Tibet. On my way, I was not able--Tibet was closed 
in 1989, and I was in Chengdu during the Tiananmen Massacre, 
and that is a whole other story.
    But anyway, on the way home--I was a graduate student in 
Tibetan philosophy--and on my way home I interviewed the Dalai 
Lama in Los Angeles. And then a couple months later, 30 years 
ago today, he was awarded the Nobel Peace Prize. Thirty years 
ago today, and it is very sad to see what has happened to the 
Tibetan nation since then.
    So, Dr. Richardson, one problem is that U.S. policymakers 
have little access to the Tibet autonomous region, and they 
have been denied access to it. The United States has requested 
permission to open a consulate in Lhasa and been repeatedly 
denied.
    What should the U.S. do about this? Should we prohibit 
China from opening up any new consulates here until the Chinese 
Party allows us to open a consulate in Lhasa? I mean, how can 
we monitor human rights there or support the Tibetan people 
there if we do not--we are not there?
    Dr. Richardson. Well, I mean, first of all, I think that is 
a reasonable strategy to try. Doing good research on human 
rights violations in Tibet is extremely challenging, and I 
would say that that is maybe one of the only things that has 
prepared us for some of the work that we have been doing over 
the last couple of years on Xinjiang, where one has to be 
incredibly patient and puzzle pieces of information together.
    The information flows have narrowed considerably, 
particularly as there are greater restrictions on Tibetan 
language social media and Tibetan's access to social media.
    Mr. Levin. Right.
    Dr. Richardson. The numbers of Tibetans leaving the region 
have plummeted. The numbers of people who used to come out 
through Nepal are a tiny fraction of what they were 10 years 
ago, and it is much more difficult for people to get into the 
region.
    That said, human beings are creative in how they manage to 
get information out. We have been doing some work on access to 
bilingual education, which is not bilingual, and have actually 
managed, through various channels, to obtain some testimoneys, 
that speak to what is happening in the region, and we encourage 
anybody who is able to do that kind of work and share those 
stories safely to do so.
    I think the U.S. has resources to know what is happening in 
the region. It would be good if it was a little bit more vocal.
    Mr. Levin. Right. Well, that is a whole other matter we may 
or may not have time to get to. But let's talk about the whole 
question of the succession of the Dalai Lama.
    The 14th Dalai Lama has said that he alone has the 
legitimate authority to--about where and how he would be 
reincarnated, but trying to signal its intention to control the 
process. Of course, we have the famous situation with the 
Panchen Lama, who they said they picked their own and then he 
is--he and his parents have never been seen since.
    I just want to emphasize that Tibet has four major--there 
are four major sects of Tibetan Buddhism, and they all have 
many reincarnate lamas. And the Dalai Lama sect, which has been 
for a long time sort of politically most powerful, would never 
dream of telling the Sakyas or the Kagyus, or whatever, who the 
reincarnate lamas are. I mean, there is no--it is a 
completely--it is a question of religious freedom, and they 
think they believe that this is actually a reincarnation 
process. So a government cannot pick someone.
    So it is especially shocking. But what is--what do you 
think we can do--I mean, what do you see as the outcome of this 
dispute given what has happened with the Panchem Lama and the 
wildly higher stakes of the reincarnation of the Dalai Lama? 
What is going to happen here?
    Dr. Richardson. Well, I think one succinct, to answer, is 
to say that any Dalai Lama chosen by Beijing will be completely 
devoid of any legitimacy, both in a spiritual or a religious 
sense, but also in I think a diplomatic and political sense.
    You know, it is painfully clear, both by basic human logic 
and international law, that the right to make those decisions 
pertains solely to the community that is affected by them. And 
I think one of the best aspects of the legislation that is 
under consideration is making that view unambiguously the U.S. 
Government.
    Mr. Levin. The policy of the United States, yes.
    Dr. Richardson. And I think going out and making common 
cause with like-minded governments on that position will be 
helpful.
    Mr. Levin. So how long have you been doing human rights 
work for Human Rights Watch or otherwise?
    Dr. Richardson. I joined Human Rights Watch in February 
2006.
    Mr. Levin. So can you comment on the weight that the Trump 
Administration has given human rights vis-a-vis other aspects 
of foreign trade, military policy, U.S. national security, in 
terms of your experience with the Obama and the George W. Bush 
Administrations? With China, in general, and not just Tibet.
    Dr. Richardson. In 15 seconds?
    Mr. Levin. No. No. My chairman was good enough to give us--
so when you are--my time will expire whenever you are doing. 
You have as long as you wish.
    [Laughter.]
    Dr. Richardson. I think----
    Mr. Sherman. But then it will expire.
    Dr. Richardson. Be careful what you offer. I think the 
Trump Administration's much more aggressive posture toward 
China is a very welcome change. We have been saying for over a 
decade this is a government that presents a serious threat not 
just to the 1.4 billion people inside China, but to the world.
    And while President Trump's loathsome remarks about 
President Xi is his best friend or that he is a brilliant guy 
or these sorts of things, are I think deeply problematic 
because they allow the Chinese leadership to choose which 
version is actually U.S. policy.
    I think the Trump Administration gets credit for doing 
things like, you know, trying to find, you know, solutions or 
support for people in the community here who are being harassed 
for speaking relentlessly about religious freedom. The rhetoric 
has been good, look that we have seen additions to the entities 
list. I mean, these are not--these are not small steps to take.
    And I suspect that the U.S.-China policy will never be 
quite the same again, which is as much a function of the 
Chinese government's aggression and its terrible track record 
on human rights issues, but I think U.S. policymakers across 
the spectrum are much more not just clear-eyed, I do not mean 
to suggest that people in the past did not understand this, but 
I think people are much more focused on what the stakes are and 
what steps they need to take now to ensure that there is 
actually some accountability and some way of pushing back 
against Beijing's encroachments, not just on rights but on 
others' use, too.
    Mr. Levin. Thank you, Mr. Chairman.
    Mr. Sherman. Thank you.
    Rather than adjourn, I am going to ask one question of Ms. 
Siu because I do not believe you have been asked a question. On 
November 24th, Hong Kong held elections for district council. A 
record 4.13 million people were registered to vote. Almost 3 
million people voted, turnout over 71 percent. The pro-
democracy candidates won 388 seats, up from 126, with a similar 
decline on the pro-establishment candidates.
    As a result, the pro-democracy bloc will hold a majority in 
17 out of 18 of the district councils. You knew all of that. My 
question is: what possible leverage does the protest movement 
gain from that landslide victory? And what impact will these 
district council elections have on the legislative council 
elections in 2020?
    Ms. Siu. Well, so, first of all, on the 24th of November, 
the pro-democracy camp gained 85 percent of the district 
council seats in the 2019 district council election. And there 
are actually several symbolic meanings that the result brings 
us. First of all, it is a very encouraging signal that 
signifies that the majority of Hong Kongers are still in 
support of the five demands that the protestors had been asking 
for for the past 6 months.
    And it is actually also a very great advantage that the 
pro-democracy camp gained, that we got more financial resources 
in support to our--to the political prisoners that are put in 
jail and will be put in jail after the trial is brought to 
court.
    However, one very uncomfortable truth is that the 
legislative power that the district council counselors have are 
actually really small comparing to the legislative council 
counselors. And we Hong Kongers are expecting to win more 
States in the legislative council election.
    However, another question about the district--about the 
legislative council election is that even when we got most of 
the States for the directly elected legislative councils, most 
of the seats of the functional constituencies are still in 
hands of the pro-democracy--in the hands of the pro-Beijing 
side. And that is a very grave problem that hinders any acts or 
bills that are in a foundation of the pro-democracy side or 
Hong Kongers, only bills that benefits pro-Beijing camps or the 
businessmen will get passed into legislative council.
    So that is why--that is also one of the reasons why we had 
been asking for an authentic universal suffrage from both the 
executive branch and also the legislative branch, because that 
is the only way to grant this, and to grant Hong Kongers a 
responsive government, and also legislative counselors that 
draft bills that benefits Hong Kongers.
    Mr. Sherman. Thank you for your response. I want to thank 
my colleagues for being here.
    And we now stand adjourned.
    [Whereupon, at 3:50 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                                 [all]
</pre></body></html>
